Case 18-2608, Document 86-1,11/22/2019, 2713178, Pagel of 12

18 2608
Thompson v. United States
UNITED STATES COURT OF
APPEALS FOR THE SECOND
CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT,
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURTS LOCAL RULE 32.1.1. WHEN CITING A

Summary order ft* a document filed with this

court, a party must

CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION SUMMARY ORDER). A PARTY CITING TO A SUMMARY ORDER
MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall United
States Courthouse, 40 Foley Square, in the City of New York, on
the 22nd day of November, two thousand nineteen.
PRESENT:
JOHN M. WALKER,
JR., RICHARD J.
SULLIVAN,
Circuit Judges,
ALISON J. NATHAN,*
District Judge.

Addison Thompson,
Plaintiff Appellant,
* Judge Alison J. Nathan, of the United States District Court for the Southern District
of New York, sitting by designation.
1

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page2of 12

18-2608

v.
United States of America, United
States Postal Service, Station
Manager,
Defendants Appellees.

FOR PLAINTIFF APPELLANT:

Addison Thompson, pro
se, New York, NY.

FOR DEFENDANTS APPELLEES:

Rachel L. Doud, Assistant
Attorney
United
States
H.
Torrance,
(Benjamin
United States
Assistant
Attorney, on the brief), for
Geoffrey S. Berman, United
States Attorney for the
Southern District of New
York, New York, NY, for
Defendants Appellees United
States of America, United
States Postal Service, Station
Manager.

Appeal from a judgment of the United States District Court for the Southern
District of New York (Katherine P. Failla, J.).
UPON DUE CONSIDERATION, IT IS

HEREBY ORDERED,

ADJUDGED, AND DECREED that the judgment of the district court is
AFFIRMED.

2

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page3 of 12

Appellant Addison Thompson, proceeding pro se, appeals the
district court’s judgment dismissing his complaint under Federal Rule
of Civil Procedure 12(b)(1). Liberally construed, Thompson claimed that
the United States, the United States Postal Service (“USPS”), and the
Station Manager (collectively, the “Government”) violated his rights
under the Visual Artists Rights Act (“VARA”), the Administrative
Procedure Act (“APA”), and the Federal Tort Claims Act (“FTCA”) by
damaging a mural project he created and removing it from a post office.
We assume the parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on appeal.
We review de novo the dismissal of a complaint pursuant to Rule
12(b)(1). See Lefkowitz v. Bank of N.Y., 528 F.3d 102, 107 (2d Cir. 2007).
Dismissal of a complaint for lack of subject matter jurisdiction is proper
“when the district court lacks the statutory or constitutional power to
adjudicate it.” Makarova v. United States, 201 F.3d 110, 113 (2d Cir.
2000). Contrary to Thompson’s assertion, a district court may dismiss a
pro se complaint under Rule 12(b)(1) for lack of jurisdiction. See, e.g.,
Luckett v. Bure, 290 F.3d 493, 497 (2d Cir. 2002) (affirming Rule
12(b)(1) dismissal of pro se complaint); Posr v. Court Officer Shield #
3

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page4 of 12

207, 180 F.3d 409, 413-14 (2d Cir. 1999) (citing the liberal construction
standard described

3

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page5 of 12

in Haines v. Kerner, 404 U.S. 519 (1972), but nevertheless affirming
Rule 12(b)(1) dismissal of claims against state defendants because they
were immune from suit). Haines does not dictate otherwise; it held that a
pro se complaint must be construed liberally, but not that a pro se
complaint could never be dismissed. Haines, 404
U.S. at 520.1 Here, the district court properly construed Thompson’s
complaint liberally, attempting to find the strongest claims it suggested
by considering several laws that could be relevant to his claims.
I.

VARA
VARA, a provision of federal copyright law, is intended to protect

an artist’s “moral rights,” including a right to protect the artwork
from destruction. 17 U.S.C. § 106A; see Carter v. Helmsley Spear, Inc.,
71 F.3d 77, 81-83 (2d Cir. 1995) (describing history and purpose of
VARA). VARA “supplements general copyright protection,” and courts
look to other provisions of federal copyright law to determine whether
VARA applies to a particular case. Kelley v. Chi. Park Dist.
1 Haines relied on the “no set of facts” pleading standard announced in Conley v. Gibson,
355 U.S. 41, 45-46 (1957). Conley has been overruled by the plausibility standard
announced in Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007). However,
Twombly did not affect Haines’s ruling about pro se pleadings, and we continue to
construe pro se pleadings liberally. See McLeod v. Jewish Guild for the Blind, 864
4

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page7 of 12

635 F.3d 290, 299 (7th Cir. 2011); see also Carter, 71 F.3d at 83.
Further, VARA, is expressly incorporated into the copyright law’s
liability provision, which states:
Anyone who violates any of the exclusive rights of . . . the
author as provided in section 106A(a) [VARA] ... is an
infringer of the copyright or right of the author, as the case
may be. For purposes of this chapter (other than section
506), any reference to copyright shall be deemed to include
the rights conferred by section 106A(a). As used in this
subsection, the term “anyone” includes any State, any
instrumentality of a State, and any officer or employee of a
State or instrumentality of a State acting in his or her official
capacity. Any State, and any such instrumentality, officer, or
employee, shall be subject to the provisions of this title in the
same manner and to the same extent as any
nongovernmental entity.
17 U.S.C. § 501(a) (emphasis added).2
The district court correctly held that the Government (including
the USPS specifically) is not liable under VARA. Generally, “the United
States, its agencies, and its employees (when functioning in their official
capacities) are immune from

2 Although VARA is expressly incorporated into this provision of copyright law, it is
not incorporated into 28 U.S.C. § 1498, which waives the government’s sovereign
5

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page8 of 12

immunity to suits by copyright owners. See Kammeyer v. U.S. Army Corps of Eng’rs,
No. EDCV 15 869, 2015 WL 12765463, at *3-5 (C.D. Cal. Oct. 9, 2015). In any
event, even if the § 1498 waiver applied, the district court would have lacked
jurisdiction because § 1498 provides that copyright actions against the government
must be brought in the Court of Federal Claims. 28 U.S.C. § 1498(b); see also Order
at 6-7, Twitchell v. W. Coast Gen. Corp., No. 06 cv 4857 (C.D. Cal. Feb. 8, 2008),
ECF No. 122 (“Twitchell Order”).

5

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page9 of 12

suit based on the principle of sovereign immunity ”3 County of Suffolk
v. Sebelius, 605 F.3d 135, 140 (2d Cir. 2010). In deciding whether the
United States or its agencies are liable under a federal-statute, courts
conduct a two step inquiry and determine: (1) “whether there is a
waiver of sovereign immunity for actions against the” United States or
the agency in question and (2) whether the substantive provisions of the
federal statute apply to the United States or the agency in question.
USPS v. Flamingo Indus. (USA) Ltd., 540 U.S. 736, 743 (2004). At the
first step, the district court correctly determined that the USPS has
waived sovereign immunity. See 39 U.S.C. § 401(1); Flamingo, 540 U.S.
at 744. Nevertheless, as the district court determined, VARA does not
apply to the government or its agencies by the plain language of its
liability provision. See 17 U.S.C. § 501(a) (defining “anyone” to include
state entities but failing to mention federal entities); see also Flamingo,
540 U.S. at 744-48 (holding that a provision of antitrust law, which
applied to any “person” including states and foreign

6

Case 18-2608, Document 86-1, 11/22/2019, 2713178, PagelOof

3 The USPS is an “independent establishment” of the Government and subject to
sovereign immunity. U.S. Postal Serv. v. Flamingo Indus. (USA) Ltd., 540 U.S. 736,
744 (2004).

6

Case 18-2608, Document 86-1,11/22/2019,2713178, Page11 of

governments, did not apply to the government or USPS). 4
Thompson’s argument that VARA applies to the Government
because the statute refers to “any State” and “anyone” is unavailing, as
courts have consistently held that statutes applying to “state” actors
and/or to “any person” do not apply to the federal government. See, e.g.,
Flamingo, 540 U.S. at 744-47; Vt. Agency of Nat. Res. v. United States
ex rel. Stevens, 529 U.S. 765, 780-81 (2000) (holding that a statute that
subjects “[a]ny person” to liability did not apply to sovereigns); United
States v. Acosta, 502 F.3d 54, 60 (2d Cir. 2007) (noting that 42
U.S.C. § 1983, which provides a cause of action against “state actors,”
does not provide relief against federal government actors). And the
various cases Thompson cites do not suggest otherwise; they primarily
focus on the merits of a VARA claim and, with the exception of
Twitchell, do not concern federal

4 Congress partially overruled Flamingo's holding when it passed the 2006 Postal
Accountability and Enhancement Act (“PAEA”), which amended the Postal
Reorganization Act so that the USPS could be sued under antitrust law in certain
situations. 39 U.S.C. § 409(d)(2), (e)(1); see Tog, Inc. v. USPS, No. 12 cv 1946, 2013
WL 3353883, at *2 (D. Colo. July 3, 2013). The PAEA did not, however, specify that
the USPS could be sued under VARA. And no other provision of law expressly holds
7

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page12 of

that VARA applies to the USPS or the government. See 39 U.S.C. § 410(b) (outlining
various federal laws that apply to the USPS).

7

*

*

* -O-

defendants. 5 The Government and the USPS are therefore immune
from Thompson’s claims under VARA, and the district court properly
dismissed those claims.
II.

APA
Under the APA, an agency may not act in a manner that is

“arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2). The APA waives the sovereign
immunity of the government and federal agencies.® 5 U.S.C. § 702.
However, that waiver does not apply where “any other statute . . .
expressly or impliedly forbids the relief which is sought.” Id. The Postal
Reorganization Act expressly forbids suit against the USPS under the
APA where the USPS acts within its powers. 39 U.S.C. § 410(a) (stating
that certain federal laws, including the APA, do not “apply to the
exercise of the powers of the Postal Service”); see also Mittleman v.
Postal Regulatory Comm’n, 757

5 Thompson does not cite to a particular order in TwitchelTs docket in support of his
arguments. However, review of the available orders does not support his arguments;
critically, in that case, the district court dismissed an artist’s VARA claim against
the government based on sovereign immunity, holding that the FTCA’s waiver of
immunity did not apply to VARA. See Twitchell Order at 6-7.
8

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page14 of

6 Significantly, "the APA does not waive sovereign immunity for money damages claims
... [which] fall[] outside the scope of the APA." Ward v. Brown, 22 F.3d 516, 520 (2d Cir.
1994).

8

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page15 of

F.3d 300, 305 (D.C. Cir. 2014) (collecting cases holding that the USPS is
exempt from suit under the APA). Here, as the district court correctly
held, the USPS’s actions in moving post office locations and taking
down the artwork clearly fall within its enumerated power to “maintain
buildings, facilities, equipment, and other improvements on any
property owned or controlled by it.” 39 U.S.C. § 401(6). The district
court thus lacked jurisdiction over any APA claim.
III.

FTCA

The FTCA also provides a limited waiver of the government’s
sovereign immunity for injuries arising from the tortious conduct of
federal officers or agents acting

within

the

scope

of

their

office or employment. 28 U.S.C. § 1346(b)(1). Before bringing suit under
the FTCA, a plaintiff must exhaust administrative remedies by filing a
claim for monetary damages with the appropriate federal entity within
two years of accrual of the injury. 28 U.S.C. § 2401(b); Phillips v.
Generations Family Health Ctr., 723 F.3d 144, 147 (2d Cir. 2013).
A plaintiff has properly exhausted an FTCA claim against the USPS when
the U.S. Postal Service receives from a claimant, his duly authorized
9

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page16 of

agent or legal representative, an executed Standard Form 95, Claim
for Damage or Injury, or other written notification of an incident,
accompanied by a claim for money damages in a sum certain for injury
to or loss of property, personal injury, or death alleged to have occurred

9

Case 18-2608, Document86-1,11/22/2019, 2713178, PagelOof 12

by reason of the incident. A standard Form 95 may be
obtained from the local District Tort Claims Coordinator, the
National Tort Center, or online at usa.gov (select
Government forms).
39 C.F.R. § 912.5(a) (emphasis added). A district court lacks subject
matter jurisdiction if the plaintiff failed to exhaust his FTCA claims.
See Celestine v. Mount Vernon Neighborhood Health Ctr., 403 F.3d 76,
82 (2d Cir. 2005).
Here, Thompson failed to allege proper exhaustion. Although he
asserts that he communicated with USPS officials from 2013—2017, he
never alleged that he sought money damages in any of those
communications. Because Thompson discovered the removal and
damage to the project in 2014 at the latest, the two year period for
exhaustion expired in 2016 and any tort claim resulting from that
damage is “forever barred.” 28 U.S.C. § 2401(b). And, as the district
court correctly determined, Thompson did not allege any extraordinary
circumstance that might warrant tolling of the exhaustion period.
Finally, Thompson’s argument on appeal that the Rehabilitation Act
and the Americans with Disabilities Act (“ADA”) do not require
exhaustion is inapposite; although the exhaustion requirement for a
10

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page11 of 12

plaintiff raising discrimination claims arising under those statutes may
be waived, those statutes have no bearing on the FTCA’s

10

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page12 of 12

exhaustion requirement. ?
IV.

New Claims
For the first time on appeal, Thompson raises claims under the

Rehabilitation Act, the ADA, and the Takings Clause of the
Constitution. We decline to decline to consider those claims. See
Harrison v. Republic of Sudan, 838 F.3d 86, 96 (2d Cir. 2016) (“It is a
well established general rule that an appellate court will not consider
an issue raised for the first time on appeal.” (cleaned up)).
V.

Leave to Amend
Finally, the district court properly denied Thompson leave to file

an amended complaint. Denials of leave to amend based on futility are
reviewed de novo. Hutchison v. Deutsche Bank Sec. Inc., 647 F.3d 479,
490

(2d

Cir. 2011). Typically, a pro se plaintiff should be “grant[ed]

leave to amend at least once when a liberal reading of the complaint
gives any indication that a valid claim might be stated,” but leave to
amend need not be granted where amendment would be futile. Cuoco v.
Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000) (internal

1 ADA and Rehabilitation Act plaintiffs are required to exhaust their claims,
although exhaustion is not jurisdictional under those statutes and may be waived.
11

Case 18-2608, Document 86-1,11/22/2019, 2713178, Page 13 of 12

See Boos v. Runyon, 201 F.3d 178, 181-84 (2d Cir. 2000) (Rehabilitation Act); Zerilli
Edelglass v. N.Y.C. Transit Auth., 333 F.3d 74, 80-81 (2d Cir. 2003) (ADA).

11

Case 18-2608, Document 86-1, 11/22/2019, 2713178, Page14 of 12

quotation marks and citation omitted). Here, the deficiencies of the
complaint - lack of jurisdiction and failure to exhaust the FTCA claims
within two years - could not be cured.
We have considered all of Thompson’s remaining arguments and
find them to be without merit. Accordingly, we AFFIRM the judgment
of the district court.
FOR THE COURT:
Catherine 0 Hagan Wolfe, Clerk of Court

12

Case l:17-cv-05Q17-KPF Document 36 Filed 07/11/18 Page 1 of 23

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_______________
DATE FILED: July 11.2018

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

ADDISON
THOMPSON,
17 Civ. 5017 (KPF)

Plaintiff,

OPINION AND
ORDER

v.
UNITED STATES OF AMERICA,
UNITED STATES POSTAL SERVICE,
Defendants.
X

KATHERINE POLK FAILLA, District Judge1:
Plaintiff Addison Thompson, proceeding pro se, seeks relief
against the United States and the United States Postal Service
CUSPS”) (collectively, “Defendants”) for the removal and
improper storage of his artwork. Plaintiff alleges that in 2008,
the USPS agreed to display the first installment of his two- part
9/11 memorial photographic mural (“Part I”) at the Peter Cooper
Post Office (“Cooper Post Office”) in New York City. Plaintiff
further alleges that in 2010, the USPS erected the second
installment of his mural (‘Tart II”) at the nearby Peter
Stuyvesant Post Office (“Stuyvesant Post Office,” and together
with the Cooper Post Office, the “Post Offices”). Sometime in
2013, the Stuyvesant Post Office relocated, during which the
components of Part II — consisting of Plaintiffs photographic

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23
images printed on canvas — were removed

Mackenzie Humble, a rising second-year student at Columbia Law School
and an intern in my Chambers, provided substantial assistance in
researching and drafting this Opinion.

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

from the walls and stored in the basement of the new facility.
The photographs were allegedly damaged through the
process of their removal and storage, leading Plaintiff to
seek relief under the Visual Artists Rights Act of 1990
(“VARA”), 17 U.S.C. § 106A. Given Plaintiffs pro se status
and the solicitude required on account thereof, the Court
construes the pleadings also to allege claims under the
Administrative Procedure Act (“APA”), 5 U.S.C. §§ 500-596,
and the Federal Tort Claims Act (“FTCA”), 28 U.S.C. §§
1346(b), 2671-2680.
Pending before the Court is Defendants’ motion to
dismiss. For the reasons set forth in the remainder of this
Opinion, Defendants are correct that the Court lacks subject
matter jurisdiction to hear Plaintiffs claims.
Accordingly, the Court grants Defendants’ motion in full.

BACKGROUND
A.

Factual Background^
Plaintiffs grievances stem from the alleged damage to

Part II of a two- part photographic mural created to
2

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

memorialize the terrorist attacks of

The facts in this section are drawn from the Complaint (“Compl.”
(Dkt. #2)), filed on June 30, 2017, and, in light of Plaintiffs pro se
status, from Plaintiffs opposition brief. See Nielsen v. Rabin, 746
F.3d 58, 62 (2d Cir. 2014) (“[A] pro se litigant in particular should
be afforded every reasonable opportunity to demonstrate that he
has a valid claim.”); Walker v. Schult, 717 F.3d 119, 122 n.l (2d
Cir. 2013) (“A district court deciding a motion to dismiss may
consider factual allegations made by a pro se party in his papers
opposing the motion.”).
In adjudicating the motion to dismiss, the Court accepts as true
the well-pleaded allegations in the Complaint. See In re Elevator
Antitrust Litig., 502 F.3d 47, 50 (2d Cir. 2007) (per curiam). For
ease of reference, the Court refers to Defendants’ memorandum of
law in support of their motion to dismiss, dated February 9, 2018,
as “Def. Br.” (Dkt. #23); Plaintiffs opposition brief, dated February
27, 2018, as “PI. Opp.” (Dkt. #25); Defendants’ reply brief, dated
March 23, 2018, as “Def. Reply” (Dkt. #26); Defendants’
supplemental letter brief, dated June 26, 2018, and filed in
response to the Court’s June 14, 2018 Order (Dkt. #30), as “Def.
Supp.” (Dkt. #33); and Plaintiffs supplemental letter brief, dated
June 27, 2018, as “PI. Supp.” (Dkt. #35). Because the Complaint

3

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

September 11, 2001. Each Part illustrates an individual
panoramic landscape, with Part I depicting two broken stone
towers and Part II conveying a scene in the Hudson River Valley,
contrasting “the dramatic shadows cast by leaves as a fireworks
of light symbolic of the 9/11 event.” (Compl. 2). In 2008, Plaintiff
verbally agreed with the USPS to install the first part of his
“9/11 memorial photographic composite mural project” at the
Cooper Post Office, consisting of 12 “high-resolution digital
images printed on canvas to mimic the appearance of a painting.”
(Id. at 1-2). Two years later, in 2010, Plaintiff agreed to install a
second part of the mural project, consisting of 13 similarly
produced digital images printed on canvas, in the Stuyvesant
Post Office. (PI. Opp. 1-2). Plaintiff further agreed to “remove the
murals, upon request.” (Id. at 2).3

In 2011, the Stuyvesant Post Office relocated to “a smaller
customer service center.” (Compl. 2). Following the relocation,
Plaintiff twice attempted to contact a facilities manager to
inquire into the whereabouts of his mural.
4

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page lot23

does not have numbered paragraphs, the Court instead cites to the
relevant page numbers.
3

The Court notes that, though Plaintiff uses the term “agree” to describe
to remove the murals upon request, Plaintiff has not
his commitment
identified, and the Court cannot discern, any legally binding contract
between the parties. The Complaint states that Plaintiff “donated and
installed” his mural project. (Compl. 1). Plaintiff committed to
“remove the murals, upon request” (PL Opp. 2), but that commitment
does not appear to have been made with any bargained-for
consideration, see Startech, Inc. v. VSA ARTS, 126 F. Supp. 2d 234, 237
(S.D.N.Y. 2000) (“Consideration is defined as either a bargained for
gain or advantage to the promisee or a bargained for legal detriment or
disadvantage to the promisor.”). That is, there does not appear to have
been any gain to Plaintiff or any disadvantage to the USPS in connection
with Plaintiffs promise to remove the murals upon request. Though the
USPS obtained Plaintiffs contact information through the “permissions
process” (Compl. 3), it did not promise to contact Plaintiff. Even if it had
promised as much, nothing in the pleadings suggests that such a
commitment by the USPS would constitute a quid pro quo, or
consideration, for Plaintiffs own commitment to remove the murals upon
request. For these reasons, the Complaint does not allege a viable
breach of contract claim against the Defendants.

5

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

(Id. at 3). He received no response. (Id.). Plaintiff does not
specify when he discovered the fate of his mural; however, at
some point in 2013 or 2014, Plaintiff learned that his
photographs were being kept in the basement of the 23rd
Street Post Office, bound and placed in cloth Postal Service
carts. (Id.). Plaintiff thereafter “attempted to make contact
with the Postal Inspector to discuss the removal” of his
photographs. (Id.). Plaintiff wrote to the 23rd Street Post
Office directly to request permission “to recreate the murals or
create new murals.” (Id. at 3). His request was denied, but
Plaintiff was “invited to recover his mural[ ] in the Post Office
basement.” (Id.). After finding an incomplete collection of the
photographs in the basement “damaged on the front and torn
on the back,” Plaintiff refused to accept them. (Id.).
In 2015 and 2016, Plaintiff continued to communicate
with the USPS — this time online — regarding the damaged
mural. (Compl. 4). Plaintiffs initial efforts to contact the USPS
through his online account succeeded, and he was eventually
persuaded to direct his queries to the 23rd Street Post Office
6

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23
following the 2016 holiday season. (Id.). In January 2017,
Plaintiff attempted to reinitiate contact with the 23rd Street
Post Office, but his overture was met with silence,
precipitating the present suit. (Id.). Throughout, Plaintiff has
kept in his possession the negatives of the photographs at
issue, and with them the ability to reprint the photographs and
recreate the damaged murals. (See Dkt. #17 at 5:15-17 (“And
I’m not so mad that they’re destroyed because, you know,
they’re photographic. So I can just reprint them because I have
the original negatives[.]”)).

7

Case l:17-cv-05017-KPF Document36 Filed07/11/18 Page lot23

B.

Procedural Background
On June 30, 2017, Plaintiff filed a Complaint against the

USPS and the United States. (Dkt. #2). Defendants filed a
motion to dismiss the Complaint on October 2, 2017. (Dkt. #8).
Because they did so without having first filed a pre-motion
letter, as required under Rule 4A of the Court’s Individual
Rules of Practice in Civil Cases, the Court terminated that
motion. (Dkt. #11). Shortly thereafter, on October 6, 2017,
Defendants filed a letter requesting a pre- motion conference
(Dkt. #12), which conference was held on November 15, 2017
(see Dkt. #17 (transcript of conference)). The Court granted
Defendants 60 days to determine whether they could
accommodate Plaintiffs requests to reinstall his photographic
mural. (Id.). On January 11, 2018, Defendants filed a letter
declining to do so. (Dkt. #20).
The Court issued a briefing schedule for Defendants’
motion to dismiss directing Defendants to file their opening
brief by February 9, 2018, Plaintiff to file his opposition brief
by March 16, 2018, and Defendants to file their reply by
March 23, 2018. (Dkt. #21). All briefs were timely filed. (Dkt.
8

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

#23, 25, 26).
DISCUSSION
A.

Applicable Law
1.

Motions to Dismiss Under Federal
Rule of Civil Procedure 12(b)(1)

In considering both a Rule 12(b)(1) motion to dismiss for
lack of subject matter jurisdiction and a Rule 12(b)(6) motion to
dismiss for failure to state a claim upon which relief can be
granted, "the Court must first analyze the Rule 12(b)(1)
motion to determine whether the Court has subject matter

9

r-r

\

Case l:17-cv-050l7-KPF Document 36 Filed 07/11/18 Page 1 of 23

47 b•

: jurisdiction necessary to consider the merits of the action.”
Wong v. CKX, Inc., 890 F. Supp. 2d 411, 414-15 (S.D.N.Y.
2012). “A case is properly dismissed for lack of subject matter
jurisdiction under Rule 12(b)(1) when the district court lacks
the statutory or constitutional power to adjudicate it.”
Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000).
Ultimately, a “plaintiff asserting subject matter jurisdiction has
the burden of proving by a preponderance of the evidence that it
exists.” Id.

4v;'-

In resolving a Rule 12(b)(1) motion, “the district court must
take all uncontroverted facts in the complaint... as true, and
draw all reasonable inferences in favor of the party asserting
jurisdiction.” Fountain v. Karim, 838 F.3d 129, 134 (2d Cir.
2016) (quoting Tandon v. Captain’s Cove Marina of Bridgeport,
Inc., 752 F.3d 239, 243 (2d Cir. 2014)). Given Plaintiffs pro se
status, he is entitled to a special solicitude, one that requires
“liberal construction of pleadings, [and] motion papers” to avoid
the “forfeit [ure] [ofl important rights through inadvertence”
occasioned by pro se litigants’ general inexperience and lack of
K

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23
\v4*

formal legal training. Tracy v. Freshwater, 623 F.3d 90*, 10*1

-

' o

(2d Cir. 2010). Therefore, pleadings and submissions drafted by
pro se litigants must be read “to raise the strongest arguments
they suggest.” McLeod v. Jewish Guild for the Blind, 864 F.3d
154, 156 (2d Cir. 2017) (quoting Bertin v. United States, 478
F.3d 489, 491 (2d Cir. 2007)). A district court must also
“grant a pro se litigant leave to amend ‘at least once when a
liberal reading of the complaint gives any indication that a
valid claim might be stated.”’ Ganley v. City of New York, —
F. App’x —, No. 17-1704, 2018 WL 2383533, at *2 (2d

l:

Case l:17-cv-05017-KPF Document36 Filed 07/11/18 Page lot23

Cir. May 25, 2018) (summary order) (quoting Cuoco v.
Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000)).
2.

Motions to Dismiss Under Federal
Rule of Civil Procedure 12(b)(6)

When considering a motion to dismiss under Rule
12(b)(6),, a court should “draw all reasonable inferences in
Plaintiffs favor, assume all well- pleaded factual allegations
to be true, and determine whether they plausibly give rise to
an entitlement to relief.” Faber v. Metro. Life Ins. Co., 648
F.3d 98, 104 (2d Cir. 2011) (internal quotation marks and
citation omitted). Thus, “[t]o survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted as
true* to ‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A complaint
must plead “factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Id. The Court is not, however, obligated
to accept legal conclusions disguised as factual allegations.
See Rolon v. Hennenman, 517 F.3d 140, 148-49 (2d Cir. 2008);
see also Iqbal, 556 U.S. at 678.
l:

Case l:17-cv-05017-KPF Document36 Filed07/11/18 Page lot23
“While Twombly dees* not require heightened fact pleading
of specifics, it does require enough facts to ‘nudge [a plaintiffs]
claims across the line from conceivable to plausible.”’ In re
Elevator Antitrust Litig., 502 F.3d 47, 50 (2d Cir. 2007) (per
curiam) (quoting Twombly, 550 U.S. at 570). ‘Where a complaint
pleads facts that are ‘merely consistent with’ a defendant’s
liability, it ‘stops short of the line between possibility and
plausibility of entitlement to relief.’”
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 557).
Moreover, “the

i;

Case H17-CV-05017-KPF Document36 Filed 07/11/18 Page lot23

tenet that a court must accept as true all of the allegations
contained in a complaint is inapplicable to legal conclusions.
Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.” Id.
B.

Analysis
Defendants contend that the Court lacks subject matter

jurisdiction over Plaintiffs claims. They claim that “Plaintiff
has identified no applicable waiver of the United States’
sovereign immunity, either under [VARA] ... or under any
other statute.” (Def. Reply 1). And “[i]n the absence of any
such waiver, the Court lacks subject matter jurisdiction, and
Plaintiffs Complaint must be dismissed.” (Id.).
The Court has arrived at similar conclusions. The Court
lacks jurisdiction over Plaintiffs VARA claim because the
statute does not contain an affirmative waiver of sovereign
immunity. It lacks jurisdiction over Plaintiffs APA claim
because Defendants are specifically exempt from the APA’s
waiver of sovereign immunity. Finally, it lacks jurisdiction
over Plaintiffs FTCA claim because Plaintiff has failed to
exhaust his administrative remedies, and any such remedy is
1‘

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23
now time-barred. Because the Cotrrt lacks subject matter
jurisdiction over Plaintiffs claims, it will not address
Defendants’ Rule 12(b)(6), arguments. Cornwell v. Credit Suisse
Grp., 666 F. Supp. 2d 381, 385-386 (S.D.N.Y. 2009) (“[A]bsent
authority to adjudicate, the Court lacks a legal basis to grant
any relief, or even consider the action further.”).

1!

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 1 of 23

1.

The Court Lacks Subject Matter
Jurisdiction over Plaintiffs VARA Claim

When, the federal government or a federal agency is sued,
the doctrine of sovereign immunity may present a
jurisdictional bar. See FDIC v. Meyer, 510
U.S. 471, 475 (1994). “The basic rule of federal sovereign
immunity is that the United States cannot be sued at all
without the consent of Congress.” Block v N.D. ex rel. Bd. of
Univ. & School Lands, 461 U.S. 273, 287 (1983). In other words,
“[t]he waiver of sovereign immunity is a prerequisite to subjectmatter jurisdiction^]” Presidential Gardens Assocs. v. U.S. ex rel.
Sec’y of Hous. & Urban Dev., 175 F.3d 132, 139 (2d Cir. 1999)
(discussing United States v. Mitchell, 463 U.S. 206, 212 (1983)).
More specifically, Congress can abrogate sovereign immunity
only if it has (i) “unequivocally express [ed] its intent to abrogate
the immunity” and (ii) acted under “a valid exercise of power[.]”
Green v. Mansour, 474 U.S. 64, 68 (1985). Sovereign
immunity extends to agencies of the United States, including
the USPS. U.S. Postal Serv. v. Flamingo Industries (USA)
Ltd., 540 U.S. 736, 741 (2004); see also Dolan v. U.S. Postal
l<

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page lot23
Serv\, 546 U.S. 481, 483-84 (2006) (“Under-the Postal
Reorganization Act,... the Postal Service is ‘an independent
establishment of the executive branch of the Government
of the United States[.]”’ (citing 39 U.S.C. § 201)).
In Flamingo, the United States Supreme Court described
the two-step process courts use to determine whether they have
subject matter jurisdiction over statutory claims against the
federal government or federal agencies. 540 U.S. at 743. At
step one, the court asks “whether there is a waiver of
sovereign immunity for actions against the [federal agency].”
Id. If so, the court moves to

1'

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

step two and determines “whether the substantive
prohibitions of the [statute under which the claim is brought]
apply to an independent establishment of the Executive
Branch of the United States.” Id. A waiver of immunity “does
not result in liability if the substantive law in question is not
intended to reach the federal entity.” Id. at 744.
Congress has, in fact, waived sovereign immunity for
actions against the USPS, a point that Defendants do not
dispute. {See Def. Supp. 1-2 (“Defendants do not dispute that
Congress waived USPS’s immunity with respect to Plaintiffs
VARA claim.”)). Section 401(1) of the Postal Reorganization Act
(“PRA”), 39 U.S.C. §§ 101-606, provides that “the Postal
Service shall have the [power] ... to sue and be sued in its
official name[.],” 39 U.S.C. § 401(1)
The Supreme Court has held that this “sue-and-be-sued clause
waives immunity, and makes the Postal Service amenable to
suit, as well as to the incidents of judicial process.” Flamingo,
540 U.S. at 744. Therefore, although VARA itself does not
contain a waiver of sovereign immunity, the PRA does, and
thereby authorizes suit against the USPS.
The question, then, is whether VARA’s substantive

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

prohibitions apply to the USPS or the United States*.
Defendants argue that they apply to neither. They begin by
noting that no court has directly assessed whether VARA’s
prohibitions apply to the USPS. (Def. Supp. 2). They then
reference the Supreme Court’s analysis in Flamingo. There,
the Court “examined whether the Sherman Act’s imposition
of liability upon any ‘person’ may give rise to a claim against
USPS.” {Id. (citing Flamingo, 540 U.S. at 744-48)). The Court
10

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

observed that "[t] he Sherman Act imposes liability on any
'person,"’which the statute defines to include "corporations and
associations existing under or authorized by the laws of either
the United States [or of States or foreign governments]."
Flamingo, 540 U.S. at 744 (citing 15 U.S.C. § 7). Accordingly, the
Court held that the Sherman Act’s prohibitions do not bind the
federal government or its agencies. Id. at 744-45. Defendants
claim that, just as the Sherman Act does not apply to the federal
government, VARA similarly has no binding effect on federal
agencies.
Defendants are correct. Under the Copyright Act, 17 U.S.C.
§§101-810, which incorporates VARA, liability may extend to
"[a]nyone who violates any of the exclusive rights ofthe copyright
owner as provided by sections 106 through 122 or of the author as
provided in [VARA]." 17 U.S.C. § 501(a). The term "anyone," as
used in the statute, refers to "any State, any instrumentality of a
State, and any officer or employee of a State or instrumentality of a
State acting in his or her official capacity." Id. Notably, it does not
reference the federal government or any instrumentality, officer,
or employee thereof.
11

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
The terms "State" and* "instrumentality of a State” as used m
the statute refer not to the federal government, but rather to state
government entities. "When terms used in a statute are undefined,
we give them their ordinary meaning." Asgrow Seed Co. v.
Winterboer, 513 U.S. 179,187 (1995). Basic principles of statutory
construction require that "[t]he words of a statute should be given
their normal meaning and effect in the absence of a showing that
some other meaning was intended." United States v. Goldberger &
Dubin,

12

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

P.C., 935 F.2d 501, 506 (2d Cir. 1991). And the Supreme
Court has explained that, “[a]s a rule, a definition which
declares what a term means excludes any meaning that is not
stated.” Colautti v. Franklin, 439 U.S. 379, 392 n.10 (1979)
(internal quotation marks,, alterations, and citation omitted).
Here, Congress defined “anyone” to include State agencies,
but not federal agencies. Had Congress wished to expose
federal agencies to liability under VARA, it could easily have
defined “anyone” accordingly. It chose not to. This Court
cannot — and will not — read “State instrumentality” to refer
to federal agencies like the USPS.
Construing “State” and “any instrumentality of a State” to
apply to state (but not federal) agencies finds support in
Section 511 of the Copyright Act.
That statute recites that “[a]ny State, any instrumentality
of a State, and any officer or employee of a State ... shall
not be immune, under the Eleventh Amendment of the
Constitution of the United States[.]” 17 U.S.C. § 511. The
Supreme Court has squarely held that the Eleventh
13

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
Amendment “embodies’* the “principle of state sovereignty*!;.]^
Fitzpatrick v. Bitzer, 427 U.S. 445, 456 (1976) (emphasis
added). It has also explained that,, generally, “identical words
used in different parts of the same Act are intended to have
the same meaning[.]” Dep’tofRevenue of Ore. v.ACF
Industries, Inc., 510 U.S. 332, 333 (1994). That Congress
used the same terms in Section 501(a) and in Section 511 —
the latter of which deals with state (not federal) immunity —
provides further evidence that Congress did not intend to
make federal agencies, like the USPS, amenable to suit
under VARA.

14

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

Case law provides still further support. Though few
courts, if any, have addressed the narrow question at issue
here, numerous courts have analyzed the terms “State” and
“instrumentality of a State” in the context of challenges to
Congress’s abrogation of sovereign immunity. Those courts
have consistently understood the issue to be whether the
statutes abrogated state immunity, not federal immunity.
See, e.g., Fla. Prepaid Postsecondary Educ. Expense Bd. v.
College Sav. Bank, 527 U.S. 627, 632-33 (1999); Chavez v. Arte
Publico Press, 204 F.3d 601, 604-07 (5th Cir. 2000);
Campinha-Bacote v. Tenney, No. 10 Civ. 3165 (RRM) (ALC),
2011 WL 703936, at *2-3 (E.D.N.Y. Jan. 28, 2011). Because
the statutory language, the statute’s structure, and analogous
case law all suggest that Congress did not intend for VARA’s
prohibitions to apply to the USPS, the Court will not hold
otherwise. For that reason, the Court lacks subject matter
jurisdiction to adjudicate Plaintiffs VARA claim and declines
to address its merits. See Cornwell, 666 F. Supp. 2d at 385-86
(“[A]bsent authority to adjudicate, the Court lacks a legal basis
IS

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
to grantany relief, or ewir ewistdeT* the aetioiT fttrfrher.”)7 Arm*
v. Ashcroft, 532 F.3d 157, 168 (2d Cir. 2008) (“Determining the
existence of subject matter jurisdiction is a threshold
inquiry [.]”).

16

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

2.

The Court Lacks Subject Matter Jurisdiction over
Plaintiff’s APA Claim

The Court next addresses* whether it has subject matter
jurisdiction over Plaintiffs APA claim.4 Defendants seek
dismissal an two-separate .grounds^
First, they argue that the USPS is exempt from the APA’s
waiver of sovereign immunity. {See Def. Br. 1 (citing 39
U.S.C. § 410(a))). Second, they assert that the APA “could not
provide Plaintiff the remedy he seeks, even if he could
proceed under that statute.” {Id. at 1-2). The Court is
persuaded by Defendants’ first argument: Under the facts
presented here, the USPS is exempt from the APA’s waiver of
immunity; accordingly, the Court lacks subject matter
jurisdiction to adjudicate an APA claim.
The APA includes a waiver of sovereign immunity,
permitting suit by any “person suffering legal wrong because
of agency action, or adversely affected or aggrieved by agency
action within the meaning of a relevant statute.” 5 U.S.C.
§ 702. However, the statute also states that “nothing herein...
confers authority to grant relief if any other statute that grants
17

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
consent to suit expressly or impliedly forbids the relief which is*
sought.” Id. In other words, although the APA waives sovereign
immunity in some instances,, that waiver is not absolute.
Instead, the statute contains an express carve-out where
another statute forbids the relief sought.

Though Plaintiff does not reference the APA in his Complaint,
the Court construes the Complaint liberally, as it must do in light
of Plaintiffs pro se status. Accordingly, the Court considers the
viability of an APA claim in this action.

18

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

The PRA does just that: It forbids relief against the
USPS. The PRA states, in relevant part:
Except as provided by subsection (b) of this
section, and except as otherwise provided
in this title or insofar as such laws remain
in force as rules or regulations of the Postal
Service, no Federal law dealing with public
or Federal contracts, property, works,
officers, employees, budgets, or funds,
including the provisions of chapters
5 and 7 of title 5 [the Administrative
Procedure Act] shall apply to the exercise of
the powers of the Postal Service.
30U.SvC. § 410^a>. Accordingly, whore the USPS is* acting
outside its granted powers, judicial review under the APA
may apply. Aid Ass’n for Lutherans v. USPS, 321 F.3d 1166,
1173 (D.C. Cir. 2003). But where the USPS acts within those
powers, the APA provides no waiver of immunity.
The “powers of the Postal Service” are enumerated in
Section 401 of the PRA. They include the power (i) “to
construct, operate, lease, and maintain buildings, facilities,
equipment, and other improvements on any property owned
or controlled by it, including, without limitation, any property
or interest therein transferred to it[,]” 39 U.S.C. § 401(6),
and (ii) “to accept gifts or donations of services or property,
19

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
•read: or* personaly as* it deems, necessary ca" convenient m the
transaction of its business,” id. § 401(7). The question here is
whether removing, donated murals lies directly within the
scope of either enumerated power.
The Court begins by assessing whether the conduct at
issue falls within the USPS’s power to “maintain buildings,
facilities, equipment, and other improvements on any
property owned or controlled by it[.]” 39U.S.C. § 401(6).

20

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

Courts have yet to define the word “maintain” as used in
Section 401 of the PRA, and the term’s meaning is not readily
apparent from the context of the statute. The Court therefore
looks to dictionary definitions as guides. See generally United
States v. Castleman,, 134 S. Ct. 1405„ 1420 (2014) (consulting.
dictionary for assistance in discerning meaning intended by
Congress).
Black’s Law Dictionary defines “maintain” as “[t]o care
for (property) for purposes of operational productivity or
appearance [.]” Maintain, BLACK’S LAW DICTIONARY (10th
ed. 2014). The Merriam Webster Dictionary, for its part,
defines “maintain” as “to keep in an existing state (as of repair,
efficiency, or validity): preserve from failure or decline.”
Maintain,, MERRIAM WEBSTER DICTIONARY (11th ed.
2011). Under either definition, the removal of a mural falls
within the scope of the USPS’s enumerated powers under
Section 401 of the PRA. The decision to remove artwork
represents an instance of “car[ing] for (property) for purposes
of... appearance.” Maintain, BLACK’S LAW DICTIONARY
21

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
(10th ed. 20*1#. It may also reasoiraMy be understood ars a
decision aimed at “preserv[ing]” a space “from ... decline.”
Maintain,, MERRIAM WEBSTER DICTIONARY (11th ed.
2011). That is particularly so given the broad discretion that
the PRA accords to the USPS in making such decisions. See
Parrish v. United States, 157 F. Supp. 3d 434, 443 (E.D.N.C.
2016) (observing that “[t]he law ... leaves it

to the Postal

Service to determine the best method for the upkeep of its
various facilities”).
The removal of a mural is also incidental to the
USPS’s enumerated power to “lease [or] maintain buildings
... and other improvements.” 39 U.S.C.

22

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

§ 401(6). The PRA explicitly grants the USPS authority “to
have all other powers incidental, necessary, or appropriate
to the carrying on of its functions or the exercise of its specific
powers.” 39U.S.C. § 401(10). Even if the removal of
Plaintiff s mural were not an action to “maintain” a USPS
facility, it would at least be incidental to the power to “lease
[or] maintain buildings ... and other improvements”
because, as Plaintiff himself concedes, the mural was
removed in the course of the Stuyvesant Post Office’s
relocation to a new address. (See Dkt. #17 at 5:22-6:1). That
move was lawfully performed in accordance with the USPS’s
enumerated power, under Section 401(6), to “operate, lease,
and maintain buildings ... and other improvements.” Id. §
401(j6). The removal of Plaintiffs artwork falls within the
scope of the USPS’s powers, and therefore lies beyond the
reach of the APA. AidAss’n for Lutherans, 321 F. 3d at
1173.5
To be sure, “nonreviewability is not to be casually
inferred[,]” and “[t]he case against judicial scrutiny of an
2a

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

agent^s-exercise-of discretion urast-ber-at-compeHing-tmer.” Nat’l
Ass’n of Postal Sup’rs v. U.S. Postal Serv., 602 F.2d 420, 430
(D.C. Cir. 1979). Here,, the case against judicial scrutiny is
compelling.

Legislative history further supports the conclusion that the PRA
exempts the USPS from liability under the APA. On August 12,
1970, Congress passed the PRA, a bill intended to modernize and
enhance1 the* efficiency of the USPS. The1 Postal- Reorganization Act,
Pub. L. 91-375, 84 Stat. 719 (Aug. 12, 1970) (codified as amended
throughout Title 39, United States Code). An initial draft of the bill
read, “except as specified in the bill, all laws relating to public
works, contracts, employment, appropriations, budgeting, and any
other* laws1 governing agency operations* are made inapplicable* to*
the Post Office”; no direct reference was made to the
Administrative Procedure Act, and the clause regarding same was
added later. 116 Cong. Rec. 21,709 (1972) (Sen. McGee). The late
addition of an explicit reference to the APA evidences Congress’s
intent to ensure* that the USPS was* exempt from' APA claims. See'
Am. Postal Workers Union, AFL-CIOv. U.S. Postal Serv., 541 F.
Supp. 2d 95, 98 (D.D.C. 2008); Nat’l Easter Seal Soc’y v. USPS, 656
F.2d 754, 766-68 (D.C. Cir. 1981).

24

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

The text of the PRA demonstrates that Congress intended to
exempt the USPS, when it acts within its enumerated
powers, from exposure to suit under the APA. Any claims
Plaintiff might have brought therefore fail as to the USPS.
Though Plaintiff also brings suit against the United
States, his APA claim fares no better against this second
defendant. Any claim asserted against the United States
would still arise from “the exercise of the powers of the
Postal Service.” 39 U.S.C. § 410(a). Therefore, though the
United States generally may be sued under the APA, 5
U.S.C. § 702, Plaintiffs claim against the United States fails
for the same reasons as does his claim against the USPS.
Plaintiff does not identify any separate conduct by the
United States. Instead, the claims against both the United
States and the USPS arise out of the same conduct. Because
that conduct represents an exercise of the USPS’s
authorized powers, Plaintiffs APA claim fails as to both
Defendants.
3.

The Court Lacks Subject Matter Jurisdiction over
Plaintiffs Claim Under the Federal Tort Claims
25

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
Act
a.

Plaintiff Failed to File a “Claim” with the USPS

The Court next turns to Plaintiffs FTCA claim. “The
United States, through the FTCA, has made a limited waiver
of sovereign immunity.” James v. United States, No. 99 Civ.
4238 (BS J) (HBP), 2003 WL 22149524, at *4 (S.D.N.Y. Sept.
17, 2003). That is, the United States and its agencies may,
under certain circumstances,, be sued for tortious actions
within the scope of the FTCA. 28 U.S.C. § 1346(b)(1). The
FTCA, however, requires a plaintiff to “first presentf ] the
claim to the appropriate Federal agency” and have the claim
“finally denied by the agency in writing and sent by certified
or registered mail.”

26

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

Id. § 2675(a). The claim must be “presented to the ‘appropriate
federal agency within two years after [the] claim accrues’ and
then brought to federal court ‘within six months’ after the
agency acts on the claim.” United States v. Kwai Fun Wong,
135 S. Ct. 1625, 1629 (2015) (quoting 28 U.S.C. §, 2401(b)).
Ordinarily, a plaintiffs FTCA claim accrues at the time of
injury.
Kronisch v. United States, 150 F.3d 112, 120 (2d Cir. 1998).
The relevant time of injury is calculated from the moment the
injured party is made aware of his injury. Valdez ex rel Donely
v. United States, 518 F.3d 173, 177 (2d Cir. 2008). Here,
Plaintiff discovered his injury sometime in 2013 or 2014, but
did not file the Complaint until June 2017. (Compl. 2; Dkt.
#1). Nor did he ever file an administrative claim, as required
under the statute. (Compl. 2-4; Def. Br. 6).
Plaintiff did file certain grievances with the USPS.
From 2014 until 2017, Plaintiff repeatedly communicated —
via verbal communication, written letters, and his online
USPS.gov account — with both the 23rd Street Post Office
and the USPS to discuss the removal of Part II of his mural.
27

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

(Oomph 34). In these communications, Plaintiff initially inquired into
the whereabouts of his artwork. (Id. at 3). Once he discovered
that location, he then requested permission to display Part II
in the Cooper Post Office, alongside Part I. (Id.).
Plaintiffs requests were first met with denials; eventually, the
USPS stopped responding at all. (Id. at 3-4).
Plaintiff s communications do not constitute “claims” for
purposes of the FTCA. See Mohamed v. F.B.I., No. 14 Civ. 7615
(CM),. 2015 WL 6437369, at *6
(S.D.N.Y. Oct. 21, 2015) (“Letters to an agency that do not
contain a demand

28

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

for money damages in a sum certain do not constitute
presentation of a claim under the FTCA.” (internal quotation
marks and citation omitted)). None of Plaintiffs
communications with the USPS included any request for
money damages. In fact,, the first mention of money damages
in this litigation came in Plaintiffs opposition brief. (PI. Opp.,
Ex. 1 at 2-4). The record is devoid of any written request for
damages; instead, it appears that Plaintiff initially sought
information from Defendants, and then merely requested that
they install Part II of his mural in the Cooper Post Office.
Under binding precedent, such communications cannot be
considered “claims” for administrative relief.
Adeleke v. United States, 355 F.3d 144, 153 (2d Cir. 2004).
Plaintiff has therefore failed to exhaust his administrative
remedies, and is now time-barred from pursuing
administrative relief or any FTCA claims.
b.

Equitable Tolling Does Not Apply to Plaintiffs
Failure to File a Claim with the USPS

Though Plaimtifi himself did not raise the issue, for
completeness and in light of Plaintiffs pro se status, the Court
20

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
next examines-wiietdier-eqtritable •toffing’ might apply* ter
Plaintiff’s failure to file a qualifying claim with the USPS.
Equitable tolling, applies in “rare and exceptional
circumstances.” Ganley, 2018 WL 2383533, at *2 (quoting
Walker v. Jastremski, 430 F.3d 560, 564 (2d Cir. 2005)). The
Supreme Court has held that “the same rebuttable
presumption of equitable tolling applicable to suits against
private defendants should also apply to suits against the
United States.” Irwin v. Dep’t of Veterans Aff., 498 U.S. 89, 9596 (1990). Accordingly, in suits brought against the
United States under a statute waiving immunity, including the
FTCA, a court

21

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

may “pause the running of a limitations statute” where a
party “‘has pursued his rights diligently but some
extraordinary circumstance’ prevents him from meeting a
deadline.” KwaiFun Wong, 135 S. Ct. at 1631 (quoting
Lozanow. Montoya Alvarez,. 134 S. Ct. 1224,, 1231-32
(2014)).
Plaintiff has not identified any such “extraordinary
circumstance.” Though Plaintiff alleges that he has suffered
from a form of autism (Compl. 2), that alone is insufficient to
show an “extraordinary circumstance” preventing him from
diligently pursuing his claims. Plaintiff has failed to allege —
and the Court cannot discern — any causal connection
between Plaintiffs condition and any lack of diligence in
pursuing, his claims against the Defendants.
Under controlling precedent, mental disability only justifies
equitable tolling where a plaintiff “offerjs] a ‘particularized
description of how [the] condition adversely affected [his]
capacity to function generally or in relationship to the pursuit of
[his] rights.’” Bolarinwa v. Williams, 593 F.3d 226, 232 (2d Cir.
22

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23
26,l^><qxrotmg'-i3i50!rv; -Rttnyon, 20*1 F. 3d 178, 185{2d'Crr.
2000)). Without more, conclusory allegations regarding a
mental disability do not justify equitable tolling. Boos,. 201
F.3d at 185.
Nor does general ignorance of the requirement to file an
administrative claim justify equitable tolling, unless the
plaintiffs mental condition causes the failure to understand that
requirement. Equitable tolling is only available if a plaintiffs
lack of awareness of the limitations period is caused by his
diminished cognitive abilities. See Brown v. Parkchester S.
Condos., 287 F.3d 58, 60 (2d Cir. 2002); Boos, 201 F.3d at 185.
For equitable tolling to apply

23

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

here, Plaintiff must show that his autism prevented him from
understanding that he was required to file an administrative
claim with the USPS. Nothing in Plaintiffs submissions
suggests that is so. To the contrary, the Complaint, as well as
Plaintiffs opposition and supplemental briefs,, suggest that
Plaintiff is capable of understanding complex legal principles,
educating himself on the law, and articulating his views with
great efficacy. The deficiencies in Plaintiffs Complaint are not
alleged to, nor do they appear to, flow from Plaintiffs mental
condition. Accordingly, the Court finds that equitable tolling
does not apply.
CONCLUSION
This decision should in no way detract from Plaintiffs
considerable artistic talents,, or from the communicative
power of his installations. To hear his dispute, however, the
Court must have subject matter jurisdiction, and it does not.
For the reasons set forth above, Defendants’ motion to
dismiss is GRANTED. Additionally, because any
amendments to the pleadings would be similarly futile, the
Court does not grant Plaintiff leave to amend his Complaint.
24

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

See Cuoco, 222 F.3d at 112 (upholding denial of leave toamend pro se complaint, finding: “Repleading would thus be
futile. Such a futile request to replead should be denied.”).
The Court certifies, pursuant to 28 U.S.C. § 1915(a)(3),
that any appeal from this Opinion and Order would not be
taken in good faith; therefore, in forma pauperis status is
denied for purposes of an appeal. See Coppedge v.
United States, 369 U.S. 438, 444-45 (1962).

25

Case l:17-cv-05017-KPF Document 36 Filed 07/11/18 Page 10 of 23

The Clerk of Court is directed to terminate all pending
motions, adjourn
all remaining dates, and close this
case.
SO ORDERED.
Dated:

feJl- fdutfa-

July 11, 2018
New York, New York
KATHERINE POLK
FAILLA
United States District
Judge

Sent by First Class Mail to:
Addison Thompson
255 East 7th Street, Apt.
2 New York, NY 10009

26

Case 1:17-cv-05017-KPF Document 37 Filed 07/12/18 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_______
DATE FILED: ilia\\X

ADDfSON THOMPSON,
Plaintiff,

17 CIVIL 5017 (KPF)

-v-

JUDGMENT
UNITED-STATES OF AMERICA,
UNITED STATES POSTAL SERVICE,
Defendants.
X

It is hereby ORDERED, ADJUDGED AND DECREED: That for. the reasons
stated in the Court's Opinion and Order dated July 11,2018, this decision should in no way
detract from Plaintiffs considerable artistic talents, or from the communicative power of his
installations. To hear his dispute, however, the Court must have subject matter jurisdiction, and it
does not. For the reasons set forth in the order, Defendants' motion to dismiss is GRANTED.
Additionally, because any amendments to the pleadings would be similarly futile, the Court does
not grant Plaintiff leave to amend his Complaint. See Cuoco, 222 F.3d at 112 (upholding denial
of leave to amend pro se complaint, finding: "Repleading would thus be futile. Such a futile
request to replead should be denied."). The Court certifies, pursuant to 28 U.S.C. § 1915(a)(3),
that any appeal from the Opinion and Order would not be taken in good faith; therefore, in forma
pauperis status is denied for purposes of an appeal. See Coppedge v. United States, 369 U.S. 438,
444-45 (1962); accordingly, the case is closed.
Dated: New York, New York
July 12,2018
RUBY J. KRAJICK
Clerk of Court
BY:

ct/YVUfrvijZ&
Deputy Cle

Case 18-2608, Document 94, 01/07/2020, 2745914, Pagel of 1

UNITED STATES COURT OF
APPEALS FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the
Second Circuit, held at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New York, on the 7^ day of
January, two thousand twenty.
Before: JOHNM.
WALKER, JR.,
RICHARD J.
SULLIVAN,
Circuit Judges,
ALISON J. NATHAN*
District Judge.

ORDER
Docket No. 182608

Addison Thompson,
Plaintiff-Appellant,
v.

United States of America, United States
Postal Service, Station Manager,
Defendants-Appellees.
Appellant Addison Thompson having filed a petition for panel
rehearing and the panel that determined the appeal having considered
the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:

Catherine O'Hagan
Wolfe, Clerk of Court

* Judge Alison J. Nathan, of the United States District Court for the
Southern District of New York, sitting by designation.

